WAIVER

Supreme Court of the United States

No. 20-6939
Thomas Nevius v. Gurbir S. Grewal, Attorney General of
New Jersey, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
ot Please enter my appearance as Counsel of Record for all respondents.

OQ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

ot Iam a member of the Bar of the Supreme Court of the United States.

Iam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed by a Bar member.
Signature S

Date: 222 /20Z\
elu CG, Sayer

OMs. O Mrs. O Miss

Firm__Cumberlard County frsecubecs OCP vee

Address (IS Une Sereet

City & State Brick bepaton , Mow Sacey Zip OF S92.

Phone So E- YS73-— OY TE exkeasion 2827S
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
ce Me. Thomas News

fo. Box WI
Treatoa, Ao 7623S

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

 

(Type or print) Name. Ste
Mr.
